2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-1334

BRADLEY BOARDMAN,

a Washington Individual Provider, et al.,

Petitioners,
v.
JAY R. INSLEE,

Governor of the State of Washington, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriets.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE CENTER OF THE AMERICAN EXPERIMENT IN SUPPORT OF GRANTING THE
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface

requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point

for the text and 10 point for the footnotes, and this brief contains 3812 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of April, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-Stats of Nebraska
RENEE J, GOSS
My Comm. Exp. September &, 2623

0. thes Oudrwh. Chk

 

Notary Public

40931
